BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amici Curiae Center for Defense of Free Enterprise,
Independent Firearms Owners Association, United
States Concealed Carry Association, Protect Our Gun
Rights, and International Association for the
Protection of Civilian Guns Rights in Support of
Petitioners in 20-843, New York State Rifie & Pistol
Association, Inc., et al. v. Kevin P. Bruen, in His
Official Capacity as Acting Superintendent of New
York State Police, et al. were sent via Next Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Next Day and e-mail service to the following parties
listed below, this 19th day of July, 2021:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioners
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
Barbara. underwood@ag.ny.gov
(212) 416-8016

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E

I Washington, DC 20005

Jerad Wayne N ajvar
Counsel of Record
Austin M.B. Whatley
Najvar Law Firm, P.L.L.C.
2180 North Loop West, Ste. 255
Houston, TX 77018
(281) 404-4696
jerad@najvarlaw.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 20, 2021.

~!11

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

AMY TRIPLffi MORGAN
Attorney at Law

Notary Public, State of Ohio

My Commission Has-No Explralion
Date. Section 147.03 0.A.C.

